                 Report on Follow-Up Audit of the Billing
                                System

                                   May 2004

                     Reference Number: 2004-1C-103




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                              May 20, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                   Daniel R. Devlin
                               Assistant Inspector General for Audit (Headquarters Operations
                               and Exempt Organizations Programs)

       SUBJECT:                Report on Follow-Up Audit of the Billing System
                               (Audit #20041C0228)


       The Defense Contract Audit Agency (DCAA) re-examined the contractor Civil Group’s
       billing system as of April 9, 2004, to assure their system of billing controls is adequate to
       provide billed costs that are reasonable, compliant with applicable laws and regulations,
       and subject to applicable financial control systems. The DCAA also evaluated the Civil
       Group’s compliance with the billing system’s internal control requirements. According to
       the DCAA, the purpose of this examination was to follow-up on the contractor’s
       corrective actions taken in response to a previously issued audit report, dated
       November 22, 2002.
       The DCAA indicated that compliance tests on the Civil Group’s billing system were
       performed prior to an April 3, 2004, merger with another contractor. Therefore, the
       sampling universe did not include the acquired contractor’s business units. Accordingly,
       the results of the audit are qualified to the extent that performing compliance tests on
       these billings may have resulted in billing system deficiencies.
       The DCAA stated that, except for the qualification noted above, the billing system and
       related internal control policies and procedures of the Civil Group are adequate. During
       the course of the follow-up examination, the Civil Group adequately corrected the
       deficiencies cited in the original billing system audit.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
                                          2




If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
